No. _____________
In The Supreme Court of the United States

Kemen Lavatos Taylor, II, Petitioner
v.
Governor Mark Dayton and Tom Roy, Commissioner of Corrections, Respondents.

INDEX TO APPENDIX

Appendix A: Decision of Eighth Circuit Court of Appeals
Appendix B: Order of the District Court
Appendix C: Report and Recommendation of the Magistrate Judge
Appendix D: Decision of the Minnesota Supreme Court
Appendix E: Order denying Petition for Panel Rehearing
Appendix F: Text of 28 U.S.C. § 2254

Appendix A

Taylor v. Dayton, 968 F.3d 857 (8th Cir. 2020)

968 F.3d 857
Kemen Lavatos TAYLOR, II, Petitioner Appellant
v.
Governor Mark DAYTON; Tom Roy,
Commissioner of Corrections Respondents
- Appellees

granted a certificate of appealability on his "open
trial-right claim." D. Ct. Dkt. 38 at 7. We affirm.
To grant a state prisoner's application for a writ of
habeas corpus with respect to a claim adjudicated
on the merits, the prisoner must show that the
state court judgment "resulted in a decision that
was contrary to, or involved an unreasonable
application of, clearly established

No. 19-2064
[968 F.3d 859]
United States Court of Appeals, Eighth
Circuit.
Submitted: June 18, 2020
Filed: August 4, 2020
Rehearing and Rehearing En Banc Denied
September 15, 2020*
Counsel who represented the appellant was
Zachary Allen Longsdorf of Inver Grove Heights,
MN.
Counsel who represented the appellee was Jean
Burdorf of Minneapolis, MN.
Before GRUENDER, WOLLMAN, and KOBES,
Circuit Judges.
KOBES, Circuit Judge.
A jury convicted Kemen Lavatos Taylor II on one
count of first-degree murder and two counts of
attempted first-degree murder arising from the
deaths of three teenagers in a planned, gangrelated shooting. The Minnesota Supreme Court
affirmed his convictions. State v. Taylor , 869
N.W.2d 1, 7 (Minn. 2015). Relevant here, the state
trial court "issued a list of ‘basic rules’ for
spectators at trial" that prohibited "profanity,
threatening gestures, gum chewing, and cell
phones," and it "required spectators to show
photographic identification before being allowed
entry into the courtroom." Id. at 10. On direct
appeal, the Minnesota Supreme Court rejected
Taylor's argument that the identification
requirement violated his Sixth Amendment public
trial right. Id. The district court1 dismissed
Taylor's petition for a writ of habeas corpus but

Federal law, as determined by the Supreme Court
of the United States." 28 U.S.C. § 2254(d)(1). A
state court's decision is contrary to clearly
established law "if the state court applies a rule
that contradicts the governing law set forth" by
Supreme Court cases or "if the state court
confronts
facts
that
are
materially
indistinguishable from a relevant Supreme Court
precedent and arrives at" an opposite result. Bell
v. Cone , 543 U.S. 447, 452–53, 125 S.Ct. 847, 160
L.Ed.2d 881 (2005) (quoting Williams v. Taylor ,
529 U.S. 362, 405, 120 S.Ct. 1495, 146 L.Ed.2d
389 (2000) ). An unreasonable application of
clearly established law results "when a state court
correctly identifies the governing legal standard
but either unreasonably applies it to the facts of
the particular case or unreasonably extends or
refuses to extend the legal standard to a new
context." Munt v. Grandlienard , 829 F.3d 610,
614 (8th Cir. 2016) (citing Williams , 529 U.S. at
407, 120 S.Ct. 1495 ). Unreasonable does not
mean that the state court decision is merely
incorrect: the prisoner must show it is "so lacking
in justification that there was an error well
understood and comprehended in existing law
beyond
any
possibility
for
fairminded
disagreement." Harrington v. Richter , 562 U.S.
86, 103, 131 S.Ct. 770, 178 L.Ed.2d 624 (2011).
Taylor claims the Minnesota Supreme Court's
decision is both contrary to and an unreasonable
application of Waller v. Georgia , 467 U.S. 39,
104 S.Ct. 2210, 81 L.Ed.2d 31 (1984) and Presley
v. Georgia , 558 U.S. 209, 130 S.Ct. 721, 175
L.Ed.2d 675 (2010) (per curiam). It is neither.
Both Waller and Presley involved undisputed
courtroom closures, and as Presley makes clear,

Taylor v. Dayton, 968 F.3d 857 (8th Cir. 2020)

they provide "standards for courts to apply before
excluding the public from any stage of a criminal
trial." 558 U.S. at 213–14, 130 S.Ct. 721. In
contrast, the Minnesota Supreme Court held that
no closure occurred because "there is simply no
evidence that the requirement was enforced, or, if
so, that even a single individual—identifiable or
not—was actually excluded." Taylor , 869 N.W.2d
at 11–12. The court emphasized that it did "not
‘uphold’ the trial court's photo identification
order," and only held "that the record simply does
not support reversal." Id. at n.4. As a result, the
Minnesota Supreme Court decided "whether a
closure meriting Sixth Amendment concern has
occurred at all," D. Ct. Dkt. 38 at 5, and did not
need to evaluate whether the state trial court
properly applied the standards for closing a
courtroom set forth in Waller and Presley . Taylor
points to no other alleged violation of Supreme
Court precedent, and we hold that his petition
was properly denied.
Taylor also claims the Minnesota courts
improperly barred him from supplementing the
record post-conviction to show that the
photographic identification requirement barred
some spectators from the courtroom. The district
court denied the claim as procedurally defaulted
and did not grant a certificate of appealability on
it. D. Ct. Dkt. 38 at 5, 7. Although our jurisdiction
depends on a certificate issuing, the failure of a
certificate to specify an issue is not a
jurisdictional bar to our review. Gonzalez v.
Thaler , 565 U.S. 134, 143, 132 S.Ct. 641, 181
L.Ed.2d 619 (2012). We may exercise our
discretion to address an issue outside the scope of
the certificate in appropriate circumstances,
Armstrong v. Hobbs , 698 F.3d 1063, 1068–69
(8th Cir. 2012), but we decline to expand the
certificate of appealability here.
The judgment of the district court is affirmed.
-------Notes:
Judge Stras did not participate in the
consideration or decision of this matter.
*

The Honorable David S. Doty, United States
District Judge for the District of Minnesota,
adopting the report and recommendations of the
Honorable Leo I. Brisbois, United States
Magistrate Judge for the District of Minnesota.
1

--------

Appendix B

Appendix C

Appendix D

State v. Taylor, 869 N.W.2d 1 (Minn. 2015)

869 N.W.2d 1
STATE of Minnesota, Respondent
v.
Kemen Lavatos TAYLOR, II, Appellant.
No. A14–0942.
Supreme Court of Minnesota.
Aug. 26, 2015.
Lori Swanson, Attorney General, Saint Paul, MN,
and Michael O. Freeman, Hennepin County
Attorney, Jean E. Burdorf,
[869 N.W.2d 7]
Assistant County Attorney, Minneapolis, MN, for
respondent.
Kemen Lavatos Taylor, II, Stillwater, MN, pro se.
Considered and decided by the court without oral
argument.
OPINION
LILLEHAUG, Justice.
Kemen Lavatos Taylor, II, was convicted of one
count of first-degree murder and two counts of
attempted first-degree murder related to the
shooting of three teenagers. On direct appeal, he
alleges eight errors committed by the trial court.
We affirm the convictions.
I.
On October 4, 2012, a grand jury indicted Taylor
on two counts of murder related to the shooting
death of Rayjon Gomez: first-degree premeditated
murder
and
first-degree
murder
while
committing a drive-by shooting. Taylor was also
indicted on attempted first-degree murder
charges related to two victims who survived the
shooting.
The State's theory of the case at trial was as
follows. On the night of August 24, 2011, Taylor

drove a group of individuals associated with the
Young–N–Thuggin gang (“YNT”) to a certain
neighborhood (known as “the lows”) in north
Minneapolis in a blue van to look for an
individual known as Skitz. Skitz was affiliated
with a rival gang and had allegedly shot Taylor's
younger brother. Taylor sought to retaliate
against Skitz and other members of the rival gang.
Besides Taylor, 25 years old at the time, the van's
occupants
included
Derrick
Catchings,
Donquarius Copeland, M.L., T.B., and Taylor's
younger brother, all teenagers. As they drove
through the neighborhood, somebody in the van
thought he saw Skitz. Taylor drove a little further
and parked the van. Catchings and Copeland got
out and fired shots at several people in an alley.
The shots hit Gomez, age 13, who died at the
scene, wounded D.T., and missed D.H. Skitz was
not among the victims.
D.T. and D.H. testified that they had been riding
bikes in the lows that night with Gomez. While
they were in an alley, they heard shots come from
behind them. Gomez exclaimed that he had been
hit. D.T. was hit in the shoulder by one of the
bullets. Neither D.T. nor D.H. saw who fired the
shots into the alley. Later that night, Skitz, who
was D.T.'s cousin, told D.T. that the shooters were
looking for Skitz because he had shot Taylor's
brother.
Testifying as part of a plea agreement, Catchings
acknowledged that he was a member of YNT and
that he had killed Gomez. He testified that, on the
afternoon of August 24, 2011, he was at a house
known as the “Nest,” where he hung out with T.B.,
M.L., and Copeland. At some point, the group got
into a blue van, driven by Taylor. The van went to
Taylor's house to pick up Taylor's younger
brother, who associated with people from YNT.
Taylor's brother got in the van, and the group
talked about how he had been shot by Skitz, who
affiliated with an “opposition” gang.1 According to
Catchings, Taylor suggested that the group go to
the lows to look for Skitz, or if they could not find
Skitz, to look for rival gang members. Catchings
had a semi-automatic handgun with him, which
he showed to the group, including Taylor.

State v. Taylor, 869 N.W.2d 1 (Minn. 2015)

Catchings testified that Taylor drove the van to
the lows. As they drove through
[869 N.W.2d 8]
the lows, M.L. said that he saw Skitz. Taylor drove
to the next block and parked. Catchings and
Copeland got out to find Skitz. Catchings and
Copeland approached an alley and saw people
riding bikes, one of whom Catchings thought was
Skitz. Catchings handed the gun to Copeland, who
shot at the individual. Copeland handed the gun
back to Catchings, who fired several more shots.
Copeland and Catchings then returned to the van,
and Copeland said that he thought he had shot
Skitz. Taylor told the group “to keep [it] between
the people in the van.” Taylor drove the group
back to the Nest, where everybody but Taylor and
his brother got out. Catchings hid the gun in the
Nest, but it was seized by police several days later
during a raid.
Copeland also testified as part of a plea
agreement, and his testimony generally mirrored
that of Catchings. Copeland testified that the
same group of four was hanging out at the Nest
on August 24, 2011. Copeland was a member of
YNT, and testified that Catchings and M.L.
associated with YNT. According to Copeland, a
significant amount of fighting between YNT and
Skitz's gang had occurred that summer.
Copeland testified that Taylor, his cousin, picked
the group up in his blue van and went to Taylor's
house to pick up Taylor's brother. The group
discussed how Skitz had shot Taylor's brother.
Catchings suggested they go to the lows to shoot
at members of the rival gang. Taylor responded:
“If that's what you all want to do, then that's what
you all gonna do,” and drove the group to the
lows. Upon arriving, Copeland noticed two
individuals from the rival gang. M.L. also said he
saw Skitz. Taylor parked the vehicle, Copeland
and Catchings got out, and the two ran to an alley.
Catchings stopped at the alley because he said he
saw Gomez, with whom Catchings had a “beef.”
Catchings shot several times at Gomez and the
other two victims. He then handed the gun to
Copeland, who fired several more shots.

Catchings and Copeland returned to the van, and
Copeland told the group: “I think I shot
somebody.” Taylor replied “[y]ou all didn't pop
nobody.” Taylor then drove the group back to the
Nest and dropped off Copeland, Catchings, M.L.,
and T.B.
Both Copeland and Catchings acknowledged that
they did not initially implicate Taylor when
talking with police. Catchings did not implicate
Taylor because he “didn't want to bring nobody
else in it.” Copeland was concerned about getting
the others in trouble, and believed that only the
shooters should get in trouble. Copeland and
Catchings agreed to testify against Taylor when
they negotiated guilty pleas to second-degree
murder.
T.B. also testified for the State, but he was a
hostile witness. At the time of trial, T.B. had not
been charged with a crime for his participation in
the Gomez shooting, and he was not testifying as
part of a plea agreement. His version of events
generally echoed the testimony of Copeland and
Catchings: M.L., T.B., Copeland, and Catchings
were hanging out at the Nest. Copeland and
Catchings were members of YNT. Taylor picked
them up in a van, and eventually drove them to
pick up his younger brother. The group talked
about how Skitz shot Taylor's brother. Taylor then
drove to the lows, where T.B. saw a rival gang
member; Taylor drove a little further and parked.
Copeland and Catchings jumped out of the van
with a gun. T.B. heard some shots; Copeland and
Catchings got back in the van, and one of them
exclaimed: “I think I got ... Rayjon!” As the group
drove away, Copeland and Catchings joked about
what had just happened. Taylor reportedly told
them to “[s]top talkin' about it, be about it.”
[869 N.W.2d 9]
The other two alleged members of the group in
the van, M.L. and Taylor's brother, did not testify
at trial. The record does not explain why.
Three jailhouse informants testified. The first
jailhouse informant, M.P., testified that he and
Taylor shared a cell during November 2012.

State v. Taylor, 869 N.W.2d 1 (Minn. 2015)

Taylor told M.P. that he was the driver of the
vehicle used in the murder of Gomez, and that the
group had been looking to retaliate against Skitz.
Taylor told M.P. that, before Catchings and
Copeland got out of the van to shoot, they advised
Taylor's brother that: “We gonna get down for ya,
we gonna lay somebody down. We're gonna kill
somebody.” After the shooting, Taylor told those
in the van: “Be quiet, don't say nothin' if we
caught.” Generally, M.P. displayed considerable
knowledge about the specific facts of the crime,
testifying about the gun used and the
neighborhood.
The second jailhouse informant, H.P., agreed to
testify as part of a plea agreement for an
unrelated offense. At trial, he changed his story
and claimed that Taylor had not told him
anything about the case. A police investigator
later testified that H.P. told him that he was
“extremely afraid to testify [that day] in court,”
and was worried that when he went back to prison
“he would be attacked.”
The third jailhouse informant, C.R., testified that
he had known Taylor for around 10 years and that
Taylor was affiliated with YNT. Taylor told C.R.
that he was driving a group to look for members
of Skitz's gang to shoot in retaliation for the
shooting of somebody that Taylor knew.
According to C.R., he decided to testify against
Taylor because he was upset that Taylor would
use his influence over “juveniles” to have them
commit crimes: “He could have prevented it, but
he put them in that situation to do what they did.”
Taylor apparently could coerce the “juveniles” to
be the shooters, because he was a “big homey,” or
their superior.2
The district court also admitted two phone calls
made by Taylor while in jail. In the first phone
call, Taylor called an individual and expressed
regret for not posting bail: “That's why I should've
bailed out, man. If I would've bailed out, I'da been
on the run right now.” The individual responded:
“They would've came and tried to pick your ass up
for that charge.” Then Taylor said: “But I would've
been gone.”

In the second phone call, Taylor called his
girlfriend and discussed having her call his
attorneys. His girlfriend asked: “Alright, and, and
I'm just, I was wit' you that day all that shit
happened.” Taylor responded: “Tell ‘em yea, any
questions they have, tell you (inaudible).” Taylor's
girlfriend was not called as a witness by either
side.
Taylor took the stand in his defense. He denied
that he was in a gang or clique. He also denied
any involvement in the shooting of Gomez. He
acknowledged that he had previously been
convicted of two unrelated felonies: fifth-degree
possession of narcotics and possession of a
firearm. At the time of the trial, he was in prison
for the latter offense.
On rebuttal, the State called a gang expert from
the Minneapolis Police Department. The expert
examined two photographs that had been
previously admitted without objection. In the
first, Taylor appeared to be displaying a YNT
symbol. In the second, Taylor appeared to be
displaying a sign of disrespect to Skitz's gang. In
the opinion of the expert, relying
[869 N.W.2d 10]
on those photographs, and on other undescribed
information gathered from social media, police
reports, jail calls, and school resource officers,
Taylor was a gang member.
The jury found Taylor guilty of all counts. He was
convicted of one count of first-degree murder and
two counts of first-degree attempted murder.
On direct appeal, Taylor alleges eight errors
committed by the district court: (1) it excluded
from the courtroom members of the public that
did not have photographic identification; (2) it
excluded evidence supporting an alternative
motive of the eyewitnesses; (3) it admitted
testimony from a gang expert identifying Taylor
as a gang member; (4) it gave jury instructions on
aiding and abetting liability that did not include
certain elements; (5) it did not sua sponte instruct
the jury that appellant's prior convictions could

State v. Taylor, 869 N.W.2d 1 (Minn. 2015)

only be used for impeachment purposes; (6) it
violated his right to a speedy trial; (7) it admitted
a note protected by attorney-client privilege; and
(8) it admitted prison phone call recordings. We
consider each alleged error in turn.
II.
We first consider Taylor's argument that the
district court's photographic identification
requirement violated his right to a public trial. To
prevent disruptions by persons in the gallery, the
district court issued a list of “basic rules” for
spectators at trial. Besides prohibiting profanity,
threatening gestures, gum chewing, and cell
phones, the court required spectators to show
photographic identification before being allowed
entry into the courtroom. Taylor did not object.
The record does not show whether the
identification requirement was enforced and, if
so, whether anyone who sought to enter the
courtroom could not.
Taylor argues that the district court's
identification requirement violated his right to a
public trial. “Whether the right to a public trial
has been violated is a constitutional issue that we
review de novo.” State v. Brown, 815 N.W.2d
609, 616 (Minn.2012).
Both the U.S. and the Minnesota Constitutions
provide that “[i]n all criminal prosecutions the
accused shall enjoy the right to a ... public trial.”
U.S. Const. amend. VI ; Minn. Const. art. I, § 6.
The public trial right is “ ‘for the benefit of the
accused; that the public may see he is fairly dealt
with and not unjustly condemned, and that the
presence of interested spectators may keep his
triers keenly alive to a sense of their responsibility
and to the importance of their functions.’ ” State
v. Lindsey, 632 N.W.2d 652, 660 (Minn.2001)
(quoting Waller v. Georgia, 467 U.S. 39, 46, 104
S.Ct. 2210, 81 L.Ed.2d 31 (1984) ). But “the right
to a public trial is not an absolute right.” State v.
Fageroos, 531 N.W.2d 199, 201 (Minn.1995). In
some situations, a courtroom closure may be
justified. To determine whether a closure is
justified, we have adopted the U.S. Supreme
Court's Waller test, which provides:

“[T]he party seeking to close the
hearing must advance an overriding
interest that is likely to be
prejudiced, the closure must be no
broader than necessary to protect
that interest, the trial court must
consider reasonable alternatives to
closing the proceeding, and it must
make findings adequate to support
the closure.”
Fageroos, 531 N.W.2d at 201 (quoting Waller,
467 U.S. at 48, 104 S.Ct. 2210 ).
Taylor does not argue that the photographic
identification requirement constituted a full
closure of the courtroom, but rather that it
constituted a partial closure.
[869 N.W.2d 11]
For both full and partial closures, we apply the
Waller test. State v. Mahkuk, 736 N.W.2d 675,
685 (Minn.2007).
We have considered partial closures in two cases.
In Mahkuk, the district court allowed police
officers to exclude the defendant's brother and a
cousin from the courtroom. 736 N.W.2d at 684–
85. We held that the district court failed to make
findings adequate to support its closure decision.
Id. at 685. In Fageroos, the district court closed
the courtroom to all spectators during the
testimony of two minor victims of sexual assault.3
531 N.W.2d at 200–01. Similar to Mahkuk, we
held that the district court failed to articulate its
findings supporting the need for closure with
sufficient specificity and detail. Fageroos, 531
N.W.2d at 202.
But before we can apply the Waller test to
determine if a closure is justified, we must
determine whether a closure even occurred. After
all, “[n]ot all courtroom restrictions implicate a
defendant's right to a public trial.” Brown, 815
N.W.2d at 617. In Brown, the district court locked
the courtroom doors during jury instructions. Id.
However, the courtroom was never cleared of all
spectators, those in attendance were told they

State v. Taylor, 869 N.W.2d 1 (Minn. 2015)

were welcome to stay, no individual was ever
ordered removed, and the jury instructions “did
not comprise a proportionately large portion of
the trial proceedings.” Id. at 618. We held that, for
those reasons, the district court's conduct “did not
implicate Brown's right to a public trial.” Id.
To reach that holding in Brown, we relied on our
previous decision in State v. Lindsey, in which we
characterized the trial court's decision to exclude
underage spectators as “not a true closure, in the
sense of excluding all or even a significant portion
of the public from the trial.” 632 N.W.2d 652, 660
(Minn.2001). In Lindsey, we considered whether
a closure “was too trivial to amount to a violation
of the [Sixth] Amendment.” Id. at 660–61
(quoting Peterson v. Williams, 85 F.3d 39, 42 (2d
Cir.1996) ); see also State v. Silvernail, 831
N.W.2d 594, 600–01 (Minn.2013) (applying
Lindsey 's “triviality” standard and holding that
the locking of courtroom doors during the State's
closing argument was not a closure). We
identified several factors to consider when
determining whether a “true closure” occurred:
whether “all or even a significant portion of the
public” was excluded; whether the defendant, his
family, his friends, or any witnesses were
excluded; and whether any individuals actually
excluded were known to the defendant. Lindsey,
632 N.W.2d at 660–61.
Here, Taylor argues that a partial closure
occurred because “there are members of the
public who do not have photo identification and
could not attend [Taylor's] trial.” But the district
court's identification restriction is more
analogous to Lindsey, in which the restriction was
too trivial to constitute a true closure, than to the
partial closures in Mahkuk or Fageroos. As in
Lindsey, here there is no evidence in the record
that a significant portion of the public was unable
to attend due to the identification requirement;
that Taylor, his family, his friends, or any
witnesses were excluded; or that any individuals
actually excluded were known to Taylor. Further,
unlike in Lindsey, in which two unidentified
minors were actually excluded, here there is
simply no evidence that the requirement was

enforced, or, if so, that even a single individual—
identifiable
[869 N.W.2d 12]
or not—was actually excluded. Thus, we hold that
the photographic identification requirement did
not constitute a “true” closure.
Although we have no constitutional ground for
reversal,4 we caution district courts that they
should not require those who wish to attend a
public trial to produce identification as a
condition of entry to the courtroom, unless there
is good cause and no reasonable alternative under
the Waller test.5 We do not want anyone to be
discouraged
from
attending
or
viewing
proceedings in Minnesota courts.6
III.
We next consider Taylor's argument that the
district court committed reversible error when it
excluded certain evidence related to a possible
alternative motive of the eyewitnesses. To cast
doubt on whether he was involved in the
shooting, Taylor sought to counter the State's
claim that he and the others had the same motive
to kill by showing that the shooters had a motive
that did not involve Taylor. He wanted to do this
by asking Copeland and Catchings about previous
gang-related incidents. The district court
excluded the evidence under Rule 403, reasoning
that “the fact that other people also had a motive
that was either the same or different doesn't
negate the fact that Mr. Taylor had a motive.... I
don't think the fact that other people may have
had different motives is probative for anybody's
case, and it certainly has the possibility of
confusing the issues in the case.”
On appeal, Taylor argues that the exclusion of
evidence was erroneous under two theories: his
right to introduce evidence in his defense and his
right to confront witnesses. Such alleged
constitutional error is subject to harmless-error
review. See State v. Blom, 682 N.W.2d 578, 622
(Minn.2004) (applying harmless-error review to
an “erroneous exclusion of evidence that violates

State v. Taylor, 869 N.W.2d 1 (Minn. 2015)

the defendant's right to present evidence”); State
v. Pride, 528 N.W.2d 862, 867 (Minn.1995)
(applying
harmless-error
review
to
“Confrontation Clause errors”).
A.
Assuming without deciding that the district court
erred in excluding the evidence, and applying the
harmless-error test to the exclusion, we “must be
satisfied beyond a reasonable doubt that an
average jury (i.e., a reasonable jury) would have
reached the same verdict ‘if the evidence had been
admitted and the damaging potential of the
evidence fully realized.’ ” State v. Greer, 635
N.W.2d 82, 90 (Minn.2001) (quoting State v.
Post, 512 N.W.2d 99, 102 (Minn.1994) ).
We are satisfied beyond a reasonable doubt that a
reasonable jury would have reached the same
verdict even if Taylor had been able to present
evidence that
[869 N.W.2d 13]
Copeland and Catchings had been involved in
specific, prior gang-related incidents. This is
because the district court's assumed error did not
preclude Taylor from exploring Copeland's and
Catchings' gang-related motives; it only precluded
evidence of particular previous acts. Indeed, some
evidence of alternative gang-related motives of
the shooters was admitted at trial. Catchings
testified that, while Skitz was the target, the group
drove around to look for members of the
“opposition,” suggesting that Skitz's gang
affiliation (as well as Taylor's brother's gang
affiliation) was related to the retaliation. T.B.
testified that the van was pursuing a member of
the rival gang who was not Skitz. Copeland
testified that Catchings “had a beef” with Gomez,
and that Catchings both recognized and
intentionally targeted Gomez. T.B. further
testified that one of the shooters, on reentering
the van, said “I think I got [Gomez],” suggesting
that Gomez, a member of the opposition gang,
was the target.

Thus, Taylor had and used evidence that the
shooters were not primarily or solely motivated
by the shooting of Taylor's brother.7 Evidence of
other incidents would not have added much.
Therefore, the district court's error, if any, under
the “right to present evidence” theory, was
harmless.
B.
Applying the harmless-error test to an assumed
violation of the Confrontation Clause, we must
determine “whether, assuming that the damaging
potential of the cross-examination were fully
realized, a reviewing court might nonetheless say
that the error was harmless beyond a reasonable
doubt.” Pride, 528 N.W.2d at 867 (quoting
Delaware v. Van Arsdall, 475 U.S. 673, 684, 106
S.Ct. 1431, 89 L.Ed.2d 674 (1986) ). To do so, we
look to a variety of factors, including: the
importance of the testimony to the prosecution;
whether the testimony was cumulative; the
presence or absence of evidence corroborating or
contradicting the testimony on material points;
the extent of cross-examination otherwise
permitted; and the overall strength of the
prosecution's case. Pride, 528 N.W.2d at 867
(quoting Van Arsdall, 475 U.S. at 684, 106 S.Ct.
1431 ).
Here, any assumed Confrontation Clause error
was harmless beyond a reasonable doubt. It is
true that the testimony of Copeland and
Catchings was critically important to the State's
case. But not only was their testimony on material
points corroborated by each other's testimony, it
was corroborated by the testimony of T.B. and
jailhouse informants. T.B.'s corroborating
eyewitness testimony was particularly significant,
as it was not induced by a plea deal. Further,
although Taylor was not allowed to impeach
Copeland and Catchings regarding several specific
prior incidents, he was able to extensively
[869 N.W.2d 14]
impeach them based on their trial testimony,
their plea agreements, their criminal history, and
the inconsistent stories they told to police. And, as

State v. Taylor, 869 N.W.2d 1 (Minn. 2015)

we indicated previously, even in light of the
district court's ruling, Taylor was able to elicit a
considerable amount of testimony on alternative
motives. Thus, the district court's error, if any,
under the Confrontation Clause was harmless.
IV.
We next consider Taylor's argument that the
district court committed reversible error when it
allowed a gang expert to testify that Taylor was a
member of a gang.
We have “never categorically prohibited the use of
gang expert testimony.” State v. Jackson, 714
N.W.2d 681, 691 (Minn.2006). But we have
cautioned that “district courts should exercise
caution in admitting gang-expert testimony
because of the potential for such experts to
unduly influence the jury.” State v. Blanche, 696
N.W.2d 351, 374 (Minn.2005). To be admissible,
“gang expert testimony ‘must add precision or
depth to the jury's ability to reach conclusions
about matters that are not within its experience.’ ”
Jackson, 714 N.W.2d at 691 (quoting State v.
DeShay, 669 N.W.2d 878, 888 (Minn.2003) ).
We will assume without deciding that the district
court erred in admitting expert testimony that
Taylor was a member of a gang. We then
determine whether the assumed error was
harmless. An error is harmless if there is no
reasonable possibility that it “substantially
influence[d] the jury's decision.” DeShay, 669
N.W.2d at 888.

defendant] was a member of, and involved with, a
group that operated as a criminal gang”); see also
State v. Lopez–Rios, 669 N.W.2d 603, 613
(Minn.2003). Without objection from Taylor, the
district court admitted two photographs of Taylor
flashing hand symbols. The police officer (not the
gang expert) who authenticated the evidence
testified, without objection, that one picture
depicted YNT's gang symbol and the other
depicted a symbol of disrespect to Skitz's gang.
C.R., one of the jailhouse informants, testified
that Taylor was affiliated with YNT, and was a
“big homey” to the shooters. Finally, Catchings
testified that not only did Taylor drive a group of
YNT members and associates to the lows to look
for the “opposition,” but that Taylor actually
suggested that they go to the lows to look for
Skitz, or if they could not find Skitz, to look for
rival gang members.
Therefore, any reasonable juror would have
concluded, even absent the gang expert's
testimony, that Taylor was either a member of, or
associated with, YNT. The gang expert's
testimony was cumulative and harmless.
V.
We next consider Taylor's argument that the
district court improperly instructed the jury on
accomplice liability. While district courts have
broad discretion to formulate appropriate jury
instructions, a district court abuses its discretion
if the
[869 N.W.2d 15]

Here, there is no reasonable possibility the gang
expert's opinion substantially influenced the
jury's decision. The expert's testimony was
cumulative to other admitted evidence that
suggested, if not established, that Taylor was
either a member of, or clearly associated with,
YNT. See DeShay, 669 N.W.2d at 888 (holding
that there was no reasonable possibility that
gang-expert testimony substantially influenced
the guilty verdict because the testimony was “for
the most part, duplicative of testimony given by
witnesses with first-hand knowledge of the
relevant events and which established that [the

jury instructions “confuse, mislead, or materially
misstate the law.” State v. Kelley, 855 N.W.2d
269, 274 (Minn.2014). To determine if a jury
instruction correctly states the law, we analyze the
criminal statute and the case law under it. See
State v. Kuhnau, 622 N.W.2d 552, 556
(Minn.2001). Where there is a conflict between
the Minnesota Jury Instructions Guide, Criminal
(CRIMJIG) and the statute or our case law, the
latter two control. See State v. Koppi, 798 N.W.2d
358, 364 (Minn.2011).

State v. Taylor, 869 N.W.2d 1 (Minn. 2015)

Because Taylor did not object to the jury
instructions, we review for plain error. Kelley, 855
N.W.2d at 273 ; see also State v. Earl, 702
N.W.2d 711, 720 (Minn.2005) (“Failure to object
to jury instructions generally results in a waiver of
the issue on appeal.”). Under the plain-error
doctrine, Taylor must show that there was: “(1) an
error; (2) that is plain; and (3) the error must
affect substantial rights.” Kelley, 855 N.W.2d at
273–74. Even if Taylor “satisfies the first three
prongs of the plain-error doctrine, we may correct
the error only if it ‘seriously affect[s] the fairness,
integrity, or public reputation of judicial
proceedings.’ ” Id. at 274 (quoting State v.
Crowsbreast, 629 N.W.2d 433, 437 (Minn.2001)
).
A.
The district court instructed the jury that “a
defendant may be found guilty of a crime even
though somebody else actually commits the
criminal
acts,
provided
the
defendant
intentionally aided, advised, hired, counseled,
conspired with, or otherwise procured the other
person or persons to commit the crime.” This was
largely a recitation of the accomplice liability
statute, captioned “Liability for Crimes of
Another.” The statute provides that “[a] person is
criminally liable for a crime committed by
another if the person intentionally aids, advises,
hires, counsels, or conspires with or otherwise
procures
the
other
to
commit
the
crime.”Minn.Stat. § 609.05, subd. 1 (2014). The
district court further instructed the jury:
Mere presence at the scene of a
crime, without more, is not enough
for you to impose liability under the
aiding and abetting law. Such a
person is merely a witness.
However, a person's presence does
constitute aiding and abetting if it is
done knowing that a crime will be or
is being committed and intending
that it further the commission of the
crime.

The two elements in the district court's
instruction regarding a defendant's presence—
knowledge and intent—come from our case law
and CRIMJIG 4.01. However, the current version
of CRIMJIG 4.01, published in 2014 after Taylor's
trial, adds a third element: that the defendant's
presence “did aid the commission of the crime.”
10 Minn. Dist. Judges Ass'n, Minnesota
Practice—Jury Instruction Guides, Criminal,
CRIMJIG 4.01 (5th ed.2014) (emphasis added).
Taylor argues that the lack of the third element in
the district court's instruction was error.
It is unclear why CRIMJIG 4.01 adopted this third
element that requires the State to prove the
efficacy of a defendant's presence. In State v.
Mahkuk, we identified two elements for
determining whether a defendant's presence
“intentionally aids” another in committing a
crime: (1) the defendant knew that the “alleged
accomplices were going to commit a crime”; and
(2) the defendant “intended his presence or
actions to further the commission of that crime.”
736 N.W.2d 675, 682 (Minn.2007). We said
nothing about whether the State must prove
beyond a reasonable doubt that the defendant's
presence actually “did aid” the commission of the
crime. See id. We reiterated those same
“important and necessary principles”
[869 N.W.2d 16]
in State v. Milton, 821 N.W.2d 789, 805–06
(Minn.2012). In that case, we similarly did not
include whether the defendant “did aid” the
commission of the crime as an element. See id.
To support his argument that aiding and abetting
necessarily includes an efficacy element, Taylor
cites State v. Parker, 282 Minn. 343, 356, 164
N.W.2d 633, 641 (1969) (“Certainly mere
presence on the part of each would be enough if it
is intended to and does aid the primary actors.”
(emphasis added)). But Parker cannot be read as
requiring the State to prove beyond a reasonable
doubt that a defendant's presence was effective in
aiding the primary actor. Rather, Parker
acknowledges that efficacy is probative for the
jury to consider in deciding whether a defendant

State v. Taylor, 869 N.W.2d 1 (Minn. 2015)

“intentionally aids” another: whether he knew
about the crime and intended for his presence to
further its commission.
We made clear in Mahkuk and Milton the
elements required to prove accomplice liability
under Minn.Stat. § 609.05, subd. 1. We decline to
add an efficacy element. Thus, the district court
did not err.
B.
The district court also instructed the jury on
“expansive liability,” as it is labeled in the
accomplice-liability statute. See Minn.Stat. §
609.05, subd. 2 (2014). The expansive liability
subdivision states that “[a] person liable [for
aiding and abetting] is also liable for any other
crime committed in pursuance of the intended
crime if reasonably foreseeable by the person as a
probable consequence of committing or
attempting to commit the crime intended.”
Minn.Stat. § 609.05, subd. 2 (emphasis added).
Here, the district court instructed the jury that
“[t]he law further provides that a defendant who
intentionally aids and abets another person in the
commission of a crime is not only guilty of the
intended crime, but also of any other crime which
was a reasonably foreseeable and probable
consequence of trying to commit the intended
crime.” While the statute requires that the other
crimes committed in pursuance of the intended
crime be reasonably foreseeable by Taylor, the
district court's instruction did not specify that.
We have both “suggest[ed]” and “urge[d]” district
courts to use the statutory language of
“reasonably foreseeable to the person” when
instructing jurors on expansive liability. See State
v. Earl, 702 N.W.2d 711, 722 (Minn.2005) ; State
v. Vang, 774 N.W.2d 566, 582 (Minn.2009). But
we have never held that a failure to do so
automatically constitutes reversible plain error.
See Vang, 774 N.W.2d at 582 (“[W]e do not
conclude that failure to do so automatically
constitutes plain error that affects a defendant's
substantial rights.”); State v. Yang, 774 N.W.2d
539, 558 n. 6 (Minn.2009) (“But the failure to
include such language does not require automatic

reversal, particularly when the record clearly
indicates that it was reasonably foreseeable to
appellant that if he aided and abetted [gang]
members in shooting at the [rival gang members],
some of the [rival gang members] would be
injured or killed.”). In fact, we have previously
held that a jury instruction omitting such
language was not plainly erroneous, as it “did not
serve to confuse or mislead the jury and did not
materially misstate the law.” State v. White, 684
N.W.2d 500, 509 (Minn.2004).
Even were we to assume that the district court's
instruction was plainly erroneous, we would look
to the record to determine whether the jury would
have understood the reasonable foreseeability
requirement. See Vang, 774 N.W.2d at 582 ;
Yang, 774 N.W.2d at 558 n. 6. Here, the jury
would have understood the reasonable
[869 N.W.2d 17]
foreseeability to be from Taylor's perspective. In
closing, the State emphasized Taylor's knowledge
and motive: he wanted to “kill Skitz or kill
somebody who is associated with Skitz, anybody
in [the rival gang]” and he “knew that [Catchings]
had a[gun] with him. He had seen the gun.” In
other words, Taylor was “literally and figuratively
the driving force behind this murder.... [I]t was
put in motion when the defendant put his foot on
the gas pedal, put his hands on the steering wheel,
and drove the teenagers down to the lows for one
purpose—to look for Skitz or any other enemy.”
The jury could not have understood the
“reasonable foreseeability” of the murder to be
from someone else's perspective; the State
emphasized that Taylor premeditated and
intended for Copeland and Catchings to kill “Skitz
or any other enemy.” Thus, the district court's
instruction did not affect any of Taylor's
substantial rights.
C.
Also regarding expansive liability, Taylor argues
that the district court should have specifically
instructed the jury on the original intended crime.
The expansive liability subdivision provides that

State v. Taylor, 869 N.W.2d 1 (Minn. 2015)

“[a] person liable [for aiding and abetting] is also
liable for any other crime committed in pursuance
of the intended crime if reasonably foreseeable by
the person as a probable consequence of
committing or attempting to commit the crime
intended.” Minn.Stat. § 609.05, subd. 2
(emphasis added).
Taylor cites several cases in which we identified
the specific intended crime. See State v. Atkins,
543 N.W.2d 642, 646–47 (Minn.1996) ; State v.
Russell, 503 N.W.2d 110, 114 (Minn.1993) ; State
v. Merrill, 428 N.W.2d 361, 369 (Minn.1988). But
none of these cases can be fairly read to require
the district court to specify for the jury the
original intended crime. Rather, we merely
outlined the elements of an offense, adapted to
the particular facts of the case. We have, on at
least three occasions, upheld jury instructions
that did not specify the original intended crime.
See Earl, 702 N.W.2d at 722 n. 1 ; White, 684
N.W.2d at 509 ; State v. Peirce, 364 N.W.2d 801,
809 (Minn.1985). Thus, the district court did not
commit plain error.
Even were we to assume that the district court
committed plain error, it could not have affected a
substantial right. The State and its witnesses
made very clear that the original intended crime
was to shoot Skitz or another member of “the
opposition.” There was no room for the jury to
misapply expansive liability to some other
intended crime.
VI.
We next consider Taylor's argument that the
district court committed reversible error when it
allowed the State to impeach him with two prior
felony convictions without a limiting instruction.
Because Taylor did not request such an
instruction, he must show plain error.8
Taylor's prior convictions were admitted under
Rule 609, which provides that evidence of a
defendant's prior convictions, either punishable
by more than 1 year of imprisonment or involving
dishonesty or a false statement, may be
admissible, subject to some limitations. The rule

specifies that the evidence may be used “[f]or the
purpose of attacking the credibility of a witness.”
Minn. R. Evid. 609(a).
[869 N.W.2d 18]
Taylor cites only State v. Bissell to support his
argument that the lack of a limiting instruction
about how to use prior convictions is plain error.
In that case, the district court refused, over the
defendant's request, to caution the jury to use the
defendant's prior convictions solely for
determining credibility. State v. Bissell, 368
N.W.2d 281, 283 (Minn.1985). Bissell is
distinguishable. In the current case, Taylor made
no such request.
It is true that, in Bissell, we analogized evidence
of prior convictions to Spreigl evidence and stated
that “the trial court, on its own, should give a
limiting instruction both when the evidence is
admitted and as part of the final instructions to
the jury.” Bissell, 368 N.W.2d at 283 (citing State
v. Forsman, 260 N.W.2d 160, 169 (Minn.1977) ).
In the case cited for that proposition, Forsman,
we stated that, for Spreigl evidence, trial courts
“should, sua sponte, give an unequivocal limiting
instruction both at the time the evidence is
admitted and at the close of trial.” Forsman, 260
N.W.2d at 169. But, in Forsman, we ultimately
held that, “in the absence of a request, [the
district court's] failure to do so was not reversible
error.” Id. We have consistently held the same in
other cases regarding Spreigl evidence. See State
v. Vick, 632 N.W.2d 676, 685 (Minn.2001)
(“[W]hile trial courts are advised, even absent a
request, to give a cautionary instruction upon the
receipt of other-crimes evidence, failure to do so
is not ordinarily reversible error.”); State v.
Williams, 593 N.W.2d 227, 237 (Minn.1999)
(“While a trial court should generally still provide
[limiting] instructions sua sponte to ensure that
the 404(b) evidence is not used for an improper
purpose, the failure to provide limiting
instructions absent a request is not reversible
error.”); State v. Wahlberg, 296 N.W.2d 408, 420
(Minn.1980) (“It would have been better, in the
instant case, had the trial court given a limiting
instruction sua sponte [regarding prior bad acts],

State v. Taylor, 869 N.W.2d 1 (Minn. 2015)

but its failure to do so is not reversible error
where, as here, defense counsel did not request
one.”). Because Bissell and analogous Spreigl
cases do not require a limiting instruction to be
given sua sponte, the district court did not err,
much less plainly err.

conveyed to the jury that prior convictions should
be used for impeachment. And when the State
impeached Taylor using other prior bad conduct,
such as giving a false name to a police officer, the
district court instructed the jury:
[T]he defendant is not on trial for
any conduct that occurred on dates
other than August 24th, 2011. Thus,
you may not convict him solely on
the basis of conduct occurring on
other dates. Similarly, you may not
use such evidence to conclude that
the defendant has a particular
character trait or that he acted in
conformity with such trait. And
finally, you may not use such
evidence to conclude that the
defendant is a person who deserves
to be punished. To do so would be
unfair.

Further, the lack of an instruction here was not
prejudicial, nor did it affect the outcome of the
case. See State v. MacLennan, 702 N.W.2d 219,
236 (Minn.2005) (“In order to show that the
[plain] error has affected his substantial rights,
the defendant must show that the error was
prejudicial and that it affected the outcome of the
case.”). Like the defendant, every eyewitness and
jailhouse witness had a criminal record. Taylor
cross-examined each witness extensively using
criminal history, challenging the witnesses'
credibility by using words like “con,” “trickster,”
and “criminal.”
In a trial full of such witnesses, the State never
suggested that criminal history should be used for
any purpose other than determining Taylor's
credibility as a witness. See Bissell, 368 N.W.2d at
283. When the State used Taylor's prior
convictions in closing, it was only for
impeachment: “[T]aylor didn't want you to
believe some of the State's witnesses because they
are criminals. Well, the defendant testified, and
he's a criminal. What [opposing counsel] said to
you is that criminals are inherently unreliable.
Well you know what? Then that makes the
defendant's testimony inherently unreliable.”
Finally, although the district court did not deliver
the limiting instruction provided in CRIMJIG
2.02, it did provide analogous instructions at
other points during the trial. In instructing the
jury on evaluating the “testimony and credibility
of the witnesses,” the district court told the jury
[869 N.W.2d 19]
that it “should and may take note of,” among
other things, “[w]hether the witness has been
convicted of a crime, especially one involving
dishonesty or [a] false statement.” While not as
strong an instruction as CRIMJIG 2.02, it

This instruction is similar to CRIMJIG 2.01, the
Spreigl instruction. Thus, failing to give the
limiting instruction sua sponte did not affect a
substantial right.
VII.
We next consider Taylor's pro se argument9 that
he was deprived of his right to a speedy trial.
Criminal defendants have the right to a speedy
trial under the constitutions of both the United
States and Minnesota. U.S. Const. amend. VI ;
Minn. Const. art. I, § 6. Claimed Sixth
Amendment violations are subject to de novo
review. State v. Brown, 815 N.W.2d 609, 616
(Minn.2012).
A.
We have adopted the test articulated by the U.S.
Supreme Court in Barker v. Wingo for speedy
trial challenges. See State v. Widell, 258 N.W.2d
795, 796 (Minn.1977) (citing Barker v. Wingo,
407 U.S. 514, 92 S.Ct. 2182, 33 L.Ed.2d 101 (1972)
). Under the Barker test, we must consider: “(1)
the length of the delay; (2) the reason for the
delay; (3) whether the defendant asserted his or

State v. Taylor, 869 N.W.2d 1 (Minn. 2015)

her right to a speedy trial; and (4) whether the
delay prejudiced the defendant.” State v.
Windish, 590 N.W.2d 311, 315 (Minn.1999)
(citing Barker, 407 U.S. at 530–33, 92 S.Ct. 2182
). None of these factors is “either a necessary or
sufficient condition to the finding of a deprivation
of the right of speedy trial. Rather, they are
related factors and must be considered together
with such other circumstances as may be
relevant.” Barker, 407 U.S. at 533, 92 S.Ct. 2182.
In other words, we must “engage in a difficult and
sensitive balancing process.” Id.
On the first prong, the delay from the date of
indictment, see State v. Jones, 392 N.W.2d 224,
235 (Minn.1986), to the first day of trial was 1
year and 4 months. Further, the trial did not
begin until over 100 days after Taylor's speedy
trial demand. A delay that exceeds 60 days from
the date of the demand raises a presumption that
a violation has occurred, and we must apply the
remaining factors of the test. See Windish, 590
N.W.2d at 315–16 ; see also Minn. R.Crim. P.
11.09.
On the second prong, the key question is “whether
the government or the criminal defendant is more
to blame for th[e] delay.”
[869 N.W.2d 20]
Vermont v. Brillon, 556 U.S. 81, 90, 129 S.Ct.
1283, 173 L.Ed.2d 231 (2009) (quoting Doggett v.
United States, 505 U.S. 647, 651, 112 S.Ct. 2686,
120 L.Ed.2d 520 (1992) ). But “different weights
should be assigned to different reasons.” Barker,
407 U.S. at 531, 92 S.Ct. 2182. For instance, a
“[d]eliberate delay ‘to hamper the defense’ weighs
heavily against the prosecution,” while “ ‘neutral
reason[s] such as negligence or overcrowded
courts' weigh less heavily.” Brillon, 556 U.S. at 90,
129 S.Ct. 1283 (quoting Barker, 407 U.S. at 531,
92 S.Ct. 2182 ). “When the overall delay in
bringing a case to trial is the result of the
defendant's actions, there is no speedy trial
violation.” State v. DeRosier, 695 N.W.2d 97, 109
(Minn.2005).

Only one delay was fairly attributable to the State:
the unavailability of a State's witness. This was
before Taylor requested a speedy trial, and the
delay was for good cause. The only delay after
Taylor requested a speedy trial was to resolve a
conflict of interest between Taylor's counsel and
his codefendant's counsel. This was not
attributable to the State, and was also for good
cause. Because both continuances were for good
cause, this factor weighs against a speedy trial
violation.
On the third prong, Taylor asserted his right to a
speedy trial over 100 days before trial. This
weighs in Taylor's favor.
On the fourth and final prong, again adopting the
analysis of Barker, we have identified three
interests to consider in determining whether a
defendant suffered prejudice: “(1) preventing
oppressive pretrial incarceration; (2) minimizing
the anxiety and concern of the accused; and (3)
preventing the possibility that the defense will be
impaired.” Windish, 590 N.W.2d at 318 (citing
Barker, 407 U.S. at 532, 92 S.Ct. 2182 ). We have
noted that the third interest, preventing
“impairment of a defendant's defense, is the most
serious.” Id. (citing Doggett v. United States, 505
U.S. 647, 655, 112 S.Ct. 2686, 120 L.Ed.2d 520
(1992) ).
If a defendant is already in custody for another
offense, as Taylor was here, the first two interests
are not implicated. Id. The only remaining
question is whether the defense was likely harmed
by the delay. See id. (“A defendant does not have
to affirmatively prove prejudice; rather, prejudice
may be suggested by likely harm to a defendant's
case.”). In other words, Taylor has to suggest
“evidentiary prejudice.” Doggett, 505 U.S. at 657,
112 S.Ct. 2686.
Typically, such prejudice is suggested by memory
loss by witnesses or witness unavailability.See
Barker, 407 U.S. at 531, 92 S.Ct. 2182 ; State v.
Jones, 392 N.W.2d 224, 235–36 (Minn.1986). In
this case, Taylor's novel argument is that he was
prejudiced because the delay gave the State the

State v. Taylor, 869 N.W.2d 1 (Minn. 2015)

opportunity to secure plea agreements with his
codefendants.
We reject the notion that the procurement of a
plea agreement constitutes unfair prejudice. See
United States v. Abad, 514 F.3d 271, 275 (2d
Cir.2008) (“[The defendant] contends that the
delay allowed the government to locate certain
‘key prosecution witnesses'.... But this is not the
sort of prejudice contemplated by Barker 's fourth
factor. That prejudice is concerned with
impediments to the ability of the defense to make
its own case ...; the opportunity for the
prosecution to prepare for trial does not, on its
own, amount to prejudice to the defense.”).
Notably, there is no allegation that the delay was
manufactured by the State. See State v. Anderson,
275 N.W.2d 554, 555 (Minn.1978) (concluding
there was no speedy trial violation in part because
the defendant did not show “that there was any
attempt by the state to unfairly delay the
prosecution in order to gain a tactical
advantage”).
[869 N.W.2d 21]
Thus, this factor weighs against a speedy trial
violation.
Based on the four factors as balanced, Taylor's
speedy trial rights were not violated. The delay
was not greatly excessive, the continuances were
either not objected to or were for good cause, and
Taylor identifies no unfair prejudice.
B.
In the alternative, Taylor argues that his trial
counsel's failure to move for dismissal on speedy
trial grounds constitutes ineffective assistance.
We disagree.
To satisfy a claim of ineffective assistance of
counsel, “(1) the defendant must prove that
counsel's representation fell below an objective
standard of reasonableness; and (2) the defendant
must prove there was a reasonable probability
that, but for counsel's errors, the result of the
proceeding would have been different.” State v.

Nicks, 831 N.W.2d 493, 504 (Minn.2013) (citing
Strickland v. Washington, 466 U.S. 668, 687–96,
104 S.Ct. 2052, 80 L.Ed.2d 674 (1984) ). Even
assuming
that
Taylor's
trial
counsel's
performance fell below an objective standard of
reasonableness in failing to move for a dismissal
for lack of a speedy trial, it is highly unlikely that
the result of the proceeding would have been
different. The delays were for good cause, Taylor
was already incarcerated on a different
conviction, and Taylor has not identified any
unfair prejudice.
VIII.
We next consider Taylor's pro se argument that
the district court erred when it admitted into
evidence a note seized from his jail cell in which
he described T.B. as a “lying snitch ass.” Taylor
argues that the note was protected by attorneyclient privilege.
The constitutions of both the United States and
Minnesota “guarantee a right of legal
representation to anyone charged with a crime.”
State v. Willis, 559 N.W.2d 693, 697 (Minn.1997)
(citing U.S. Const. amend. VI ; Minn. Const. art. I,
§ 6 ). However, the attorney-client privilege,
provided by Minn.Stat. § 595.02, subd. 1(b)
(2014), is not a constitutional right. State v.
Andersen, 784 N.W.2d 320, 333 (Minn.2010). We
have declined to articulate a standard by which a
defendant can “prevail on a claim that an
intrusion into the attorney-client relationship
amounted to a violation of the right to counsel.”
Id. at 334. We need not announce such a standard
in this case, as the jail cell note was not protected
by attorney-client privilege.
The attorney-client privilege protects from
disclosure “communications that seek to elicit
legal advice from an attorney acting in that
capacity, that relate to that purpose, and that are
made in confidence by the client ... unless the
privilege is waived.” Nat'l Texture Corp. v.
Hymes, 282 N.W.2d 890, 895 (Minn.1979). “The
existence of the [attorney-client] privilege is a
question of fact which must be proved by the one
asserting it.” Sprader v. Mueller, 265 Minn. 111,

State v. Taylor, 869 N.W.2d 1 (Minn. 2015)

117, 121 N.W.2d 176, 180 (1963). We give “great
deference to the district court's findings of fact
and will not set them aside unless clearly
erroneous,” which requires a “definite and firm
conviction that a mistake occurred.” Andersen,
784 N.W.2d at 334.
The district court found that the note did not
communicate anything to defense counsel
regarding the case. In other words, the note did
not seek to elicit legal advice from defense
counsel. Deferring to the district court's finding,
and given the language used in the note, it is
likely that Taylor made the note for himself to
express
[869 N.W.2d 22]
frustration or anger, not for his counsel in order
to secure legal advice. Further, the district court
had the benefit of reviewing the entirety of the
seized materials in camera and excluded those
that Taylor intended to communicate to his
attorney. The district court's factual finding on
the jail cell note was not clearly erroneous.
IX.
We next consider Taylor's pro se argument that
the district court abused its discretion when it
admitted a jail call recording. Due to an error by
Taylor, that section of his brief, if any, is missing.
It is therefore unclear about which recording
Taylor complains.
We deem arguments waived on appeal if a pro se
supplemental brief “contains no argument or
citation to legal authority in support of the
allegations.” State v. Krosch, 642 N.W.2d 713, 719
(Minn.2002). However, if a “prejudicial error is
obvious on mere inspection,” we may consider the
allegation. Louden v. Louden, 221 Minn. 338,
339, 22 N.W.2d 164, 166 (1946). On mere
inspection, no error is obvious in the admission of
the two phone calls Taylor made from jail.
The first call—in which Taylor said that he wished
he had posted bail in order to be “on the run”—
was admitted to show consciousness of guilt. We

have held that a “[f]light before apprehension”
may be considered by the jury as “suggestive of a
consciousness of guilt.” State v. McTague, 190
Minn. 449, 453, 252 N.W. 446, 448 (1934).
Although Taylor's statements in the phone call
merely expressed a desire to flee and did not
constitute actual flight or an attempted escape,
they were suggestive of a consciousness of guilt.
See Straight v. State, 397 So.2d 903, 908
(Fla.1981) (“When a suspected person in any
matter attempts to escape or evade a threatened
prosecution by flight, concealment, resistance to
lawful arrest, or other indications after the fact of
a desire to evade prosecution, such fact is
admissible, being relevant to the consciousness of
guilt which may be inferred from such
circumstance.” (emphasis added)). Thus, the
admission of the first call recording does not
appear to be a prejudicial error.
In the second call, Taylor asked his girlfriend to
call his lawyers to tell them that she was with him
on the day of the murder. The phone call was
relevant to both Taylor's credibility and his
consciousness of guilt, as it suggested an attempt
to manufacture a false alibi. Thus, the admission
of the call was not error.
X.
Finally, Taylor argues that even if each trial error
was individually harmless, the cumulative effect
of the errors deprived him of a fair trial. We have
assumed two errors without deciding: admitting
gang expert testimony and precluding certain
evidence of the shooters' involvement in previous
gang-related incidents.
Taylor would be entitled to a new trial if those
errors, “when taken cumulatively, had the effect
of denying [him] a fair trial.” State v. Keeton, 589
N.W.2d 85, 91 (Minn.1998). But we cannot say
that, absent the complained-of errors, the jury
would have reached a different verdict. See State
v. Jackson, 714 N.W.2d 681, 698 (Minn.2006).
This is not a “very close factual case.” State v.
Underwood, 281 N.W.2d 337, 340 (Minn.1979) ;
see also State v. Erickson, 610 N.W.2d 335, 340–
41 (Minn.2000) (“Unlike Underwood, the facts in

State v. Taylor, 869 N.W.2d 1 (Minn. 2015)

the instant case are not close. The evidence
against appellant was very strong, and included
two
confessions
and
his
accomplice's
testimony.”). Here, the State presented the
detailed testimony of two convicted accomplices
and another eyewitness that placed Taylor as the
driver of the van with the motive and intent to aid
and abet a shooting.
[869 N.W.2d 23]
Those witnesses corroborated each other on
material points, and were further corroborated by
the detailed testimony of two jailhouse
informants. Further, Taylor's own words—in the
jail cell note and in two recorded phone calls—
were suggestive of guilt. In light of the strength of
the State's case, the value of further evidence of
the alternative motive of the shooters (when it
had already been established) and the harm of the
cumulative gang expert testimony (when Taylor's
gang affiliation had already been established) was
so minimal that it could not have affected the
jury's verdict. The cumulative effect did not
deprive Taylor of a fair trial.
For the foregoing reasons, we affirm Taylor's firstdegree murder and attempted first-degree murder
convictions.
Affirmed.
Dissenting, PAGE, J.
PAGE, Justice (dissenting).
I respectfully dissent from that part of the court's
decision upholding1 the trial court's requirement
that members of the public provide photo
identification in order to attend Taylor's trial. In
State v. Brown, we authorized trial courts to lock
courtroom doors during the time when the jury is
being instructed. 815 N.W.2d 609, 617–18
(Minn.2012). We extended our approval of
locking the courtroom doors to closing arguments
in State v. Silvernail, 831 N.W.2d 594, 600–01
(Minn.2013). Today we take another step in our
march to limit the public's access to our
courtrooms. While I fully acknowledge my role in

authoring the court's decisions in both Brown
and Silvernail, requiring members of the public to
provide photo identification to enter a courtroom
during trial is a bridge too far.2 The dissent in
State v. Silvernail, 831 N.W.2d 594, 607–09
(Minn.2013) (Anderson, Paul H., J., dissenting),
referred to the “recent phenomenon [of] ‘creeping
courtroom closure.’ ” The trial court's actions here
and today's decision leads me to conclude that the
Silvernail dissent got it right. It is time to revisit
our holdings in Brown and Silvernail.
Although we permitted the courtroom closures in
Brown and Silvernail, we cautioned trial courts
that “the act of locking courtroom doors ... creates
the appearance that Minnesota's courtrooms are
closed or inaccessible to the public.” Brown, 815
N.W.2d at 618 ; see also Silvernail, 831 N.W.2d at
601 n. 2. We further noted that “[t]rial courts
should therefore commit such acts carefully and
sparingly” and that “[t]o facilitate appellate
[869 N.W.2d 24]
review in future cases ... the better practice is for
the trial court to expressly state on the record why
the court is locking the courtroom doors.”Brown,
815 N.W.2d at 618 ; see also Silvernail, 831
N.W.2d at 601 n. 2. Our cautionary statement has
not been followed, as evidenced by the fact that
we have denied nine petitions for review since
Brown that have challenged a trial court's
decision to close or lock the courtroom doors at
various stages of the trial.3
I, like the court, am “extremely reluctant to
overrule our precedent,” and I understand that we
require a “compelling reason” to do so. State v.
Lee, 706 N.W.2d 491, 494 (Minn.2005). It is clear
to me now, however, that the practice of closing
courtrooms to the public has creeped “its way into
the routine of many of Minnesota's criminal
courts.” Silvernail, 831 N.W.2d at 609 (Anderson,
Paul H., J., dissenting). The breadth and scope of
the closures that are occurring compel me to
conclude that it is time to stop the creep.4
For these reasons, I respectfully dissent.

State v. Taylor, 869 N.W.2d 1 (Minn. 2015)

--------

ways. They had a beef. You are
going to hear testimony about that,
but this had nothing to do with
[Taylor's brother], it was never
about [him], that this was about a
problem with Derrick Catchings and
Rayjon Gomez and that that was in
fact the motivation for the shooting.

Notes:
Catchings testified that Gomez associated with
the same rival gang.
1

C.R. also testified that Taylor asked him for
advice on whether Taylor should fabricate an alibi
by having his mother testify that the van was
broken at the time of the murder.
2

Further, in closing, Taylor's trial
counsel characterized Copeland and
Catchings as gang members with a
motive to shoot Gomez: “They are
hanging out at the Nest, they are
scouting the opposition, they are
looking for the opposition, they are
doing drills, they are active in the
streets, they are making a name for
themselves.”

Although at the time we did not describe the
action as a partial closure, we characterized it as
such in Mahkuk, 736 N.W.2d at 685.
3

By this decision, we do not “uphold” the trial
court's photo identification order, as the dissent
suggests. Rather, we hold that the record simply
does not support reversal. The dissent's charge
that the court is on a “march” to limit public
access is inaccurate.
4

In Crawford v. Marion County Election Board,
553 U.S. 181, 199, 128 S.Ct. 1610, 170 L.Ed.2d 574
(2008), the U.S. Supreme Court took judicial
notice that the elderly, those with economic or
personal limitations, the homeless, and those with
religious objections to being photographed are
less likely to have government-issued photo
identification.
5

“One of our solemn obligations is to ensure
Minnesota's courts remain open and accessible to
all. Upholding this commitment is a central
mission of our Judicial Branch, and it guides our
every step....” Chief Justice Lorie S. Gildea,
Speech to Minnesota State Bar Association (June
26, 2014).

The record does not reflect whether Taylor's
decision not to ask for the instruction was, as is
sometimes the case, trial strategy. See State v.
Goodloe, 718 N.W.2d 413, 424 (Minn.2006).
8

Taylor's former appellate counsel made and
briefed the arguments previously discussed.
Taylor, who filed a pro se supplemental brief that
raised additional issues, terminated this
representation 8 days before the case was
submitted to the court.
9

6

For instance, in opening, Taylor's trial counsel
argued that:
7

[T]he evidence is going to show that
this was actually about Rayjon
Gomez, the person who was killed,
that he was the target of the
shooting all along, and he was the
target of the shooting because
Derrick Catchings had a problem
with him, that it went back a little

The court asserts that it is not upholding the trial
court's photo identification order. But, when the
court states: “[W]e have no constitutional ground
for reversal,” it is, in fact, saying that the trial
court's photo identification order was not
erroneous. Thus, the court is upholding the trial
court's order. Otherwise, the court would not be
saying that there is “no constitutional ground for
reversal” because any error would be structural
error requiring reversal. See State v. Bobo, 770
N.W.2d 129, 139 (Minn.2009) (explaining that
denial of a defendant's right to a public trial
constitutes structural error); State v. Brown, 732
N.W.2d 625, 630 (Minn.2007) (“Structural errors
require automatic reversal because such errors
‘call into question the very accuracy and reliability
of the trial process.’ ” (quoting State v. Osborne,
715 N.W.2d 436, 447 n. 8 (Minn.2006) )).
1

State v. Taylor, 869 N.W.2d 1 (Minn. 2015)

In the same way that requiring voters to present
photo identification in order to receive a ballot for
an election has the potential to create an
unconstitutional burden on the right to vote, see
Veasey v. Abbott, 796 F.3d 487, 512 (5th
Cir.2015) (holding that the voter-identification
statute at issue had an impermissible
discriminatory effect on Hispanics and African–
Americans), requiring the public to present photo
identification in order to enter a courtroom
during trial has the potential to unconstitutionally
burden a defendant's right to a public trial.
2

See State v. Hicks, 837 N.W.2d 51
(Minn.App.2013), rev. denied on courtroom
closure (Minn. Nov. 13, 2013); State v. Mosby,
A12–0988, 2013 WL 2923486 (Minn.App. June
17, 2013), rev. denied (Minn. Sept. 17, 2013);
State v. Trautman, No. A12–0929, 2013 WL
2301796 (Minn.App. May 28, 2013), rev. denied
(Minn. Aug. 6, 2013); State v. Richmond, No.
A12–0899, 2013 WL 1942995 (Minn.App. May
13, 2013), rev. denied (Minn. July 16, 2013); State
v. Perez–Martinez, No. A11–2003, 2012 WL
5476112 (Minn.App. Nov. 13, 2012), rev. denied
(Minn. Jan. 29, 2013); State v. Juma, No. A11–
2142, 2012 WL 4856158 (Minn.App. Oct. 15,
2012), rev. denied on courtroom closure, (Minn.
Jan. 15, 2013); State v. Irby, 820 N.W.2d 30
(Minn.App.2012), rev. denied on courtroom
closure (Minn. Nov. 20, 2012); State v. Cook, No.
A11–1332, 2012 WL 3263760 (Minn.App. Aug. 13,
2012), rev. denied (Minn. Oct. 24, 2012); State v.
Thomas, No. A11–1215, 2012 WL 3023335
(Minn.App. July 23, 2012), rev. denied (Minn.
Oct. 16, 2012).
3

The irony is not lost on me that, on one hand,
the court is quick to permit trial courts to lock the
courtroom doors or otherwise deny access to
courtrooms to individual citizens; while on the
other hand, the court is in haste to expand the use
of video cameras in those same courtrooms in the
name of public access and education, without
regard to the harm that the expanded camera
coverage may cause. See Promulgation of
Amendments to the Minn. Gen. Rules of Prac.,
No. ADM09–8009, Mem. at 1–2 (Minn. filed
Aug. 12, 2015) (Page, J., dissenting).
4

--------

Appendix E

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-2064
Kemen Lavatos Taylor, II
Appellant
v.
Governor Mark Dayton and Tom Roy, Commissioner of Corrections
Appellees

______________________________________________________________________________
Appeal from U.S. District Court for the District of Minnesota
(0:16-cv-03893-DSD)
______________________________________________________________________________
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
Judge Stras did not participate in the consideration or decision of this matter.
September 15, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

Appellate Case: 19-2064

Page: 1

Date Filed: 09/15/2020 Entry ID: 4956035

Appendix F

28 U.S. Code § 2254 - State custody; remedies
in Federal courts
(a) The Supreme Court, a Justice thereof, a circuit judge, or a district court shall
entertain an application for a writ of habeas corpus in behalf of a person in custody
pursuant to the judgment of a State court only on the ground that he is in custody
in violation of the Constitution or laws or treaties of the United States.
(b)
(1) An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted unless it appears
that—
(A) the applicant has exhausted the remedies available in the courts of the State; or
(B)
(i) there is an absence of available State corrective process; or
(ii) circumstances exist that render such process ineffective to protect the rights of
the applicant.
(2) An application for a writ of habeas corpus may be denied on the merits,
notwithstanding the failure of the applicant to exhaust the remedies available in
the courts of the State.
(3) A State shall not be deemed to have waived the exhaustion requirement or be
estopped from reliance upon the requirement unless the State, through counsel,
expressly waives the requirement.

1

(c) An applicant shall not be deemed to have exhausted the remedies available in
the courts of the State, within the meaning of this section, if he has the right under
the law of the State to raise, by any available procedure, the question presented.
(d) An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted with respect to any
claim that was adjudicated on the merits in State court proceedings unless the
adjudication of the claim—
(1) resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme Court
of the United States; or
(2) resulted in a decision that was based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceeding.
(e)
(1) In a proceeding instituted by an application for a writ of habeas corpus by a
person in custody pursuant to the judgment of a State court, a determination of a
factual issue made by a State court shall be presumed to be correct. The applicant
shall have the burden of rebutting the presumption of correctness by clear and
convincing evidence.
(2) If the applicant has failed to develop the factual basis of a claim in State court
proceedings, the court shall not hold an evidentiary hearing on the claim unless the
applicant shows that—
(A) the claim relies on—

2

(i) a new rule of constitutional law, made retroactive to cases on collateral review by
the Supreme Court, that was previously unavailable; or
(ii) a factual predicate that could not have been previously discovered through the
exercise of due diligence; and
(B) the facts underlying the claim would be sufficient to establish by clear and
convincing evidence that but for constitutional error, no reasonable factfinder would
have found the applicant guilty of the underlying offense.
(f) If the applicant challenges the sufficiency of the evidence adduced in such State
court proceeding to support the State court’s determination of a factual issue made
therein, the applicant, if able, shall produce that part of the record pertinent to a
determination of the sufficiency of the evidence to support such determination. If
the applicant, because of indigency or other reason is unable to produce such part of
the record, then the State shall produce such part of the record and the Federal
court shall direct the State to do so by order directed to an appropriate State
official. If the State cannot provide such pertinent part of the record, then the court
shall determine under the existing facts and circumstances what weight shall be
given to the State court’s factual determination.
(g) A copy of the official records of the State court, duly certified by the clerk of such
court to be a true and correct copy of a finding, judicial opinion, or other reliable
written indicia showing such a factual determination by the State court shall be
admissible in the Federal court proceeding.

3

(h) Except as provided in section 408 of the Controlled Substances Act, in all
proceedings brought under this section, and any subsequent proceedings on review,
the court may appoint counsel for an applicant who is or becomes financially unable
to afford counsel, except as provided by a rule promulgated by the Supreme Court
pursuant to statutory authority. Appointment of counsel under this section shall be
governed by section 3006A of title 18.
(i) The ineffectiveness or incompetence of counsel during Federal or State collateral
post-conviction proceedings shall not be a ground for relief in a proceeding arising
under section 2254.

4

